                        OFFICE OF
                 THE INSPECTOR GENERAL
                       U.S. NUCLEAR
                 REGULATORY COMMISSION




                   Audit of the Budget Formulation Process

                       OIG-05-A-09     January 31, 2005




                      AUDIT REPORT




All publicly available OIG reports (including this report) are accessible through
                               NRC’s Web site at:
             http://www.nrc.gov/reading-rm/doc-collections/insp-gen/
                                              January 31, 2005




MEMORANDUM TO:                Luis A. Reyes
                              Executive Director for Operations

                              Jesse L. Funches
                              Chief Financial Officer



FROM:                         Stephen D. Dingbaum/RA/
                              Assistant Inspector General for Audits


SUBJECT:                      AUDIT OF THE BUDGET FORMULATION PROCESS
                              (OIG-05-A-09)


Attached is the Office of the Inspector General’s (OIG) audit report titled, Audit of the Budget
Formulation Process. The report incorporates comments provided by your offices, as
appropriate.

This report reflects the results of our audit to determine whether the budget formulation portion
of the Planning, Budgeting, and Performance Management process is (1) effectively used to
develop and collect data to align resources with strategic goals, and (2) efficiently and
effectively coordinated with program and support offices.

Overall, the audit disclosed that the agency effectively develops and collects data to align
resources with strategic goals and the budget is prepared in alignment with the Strategic Plan.
Further, as required by the Office of Management and Budget, the agency successfully
conducted Program Assessment Rating Tool evaluations. NRC continued to improve the
internal coordination of the budget formulation portion of the Planning, Budgeting, and
Performance Management process with program and support offices. Additionally, the major
program offices continued to develop and refine the common prioritization process. However,
OIG identified several weaknesses where additional efforts are needed in the area of internal
coordination and communication. Specifically, the roles and responsibilities of the Chief
Financial Officer and the Executive Director for Operations in the budget formulation process
require clarification; common prioritization needs definition and methodology; the decision-
making process and roles and responsibilities of the Program Review Committee need to be
documented; and the budget formulation process needs to be further documented.

If you have any questions, please call me at 415-5915 or Steven Zane at 415-5912.

Attachment: As stated
Distribution List

B. John Garrick, Chairman, Advisory Committee on Nuclear Waste
Mario V. Bonaca, Chairman, Advisory Committee on Reactor Safeguards
John T. Larkins, Executive Director, Advisory Committee on Reactor
 Safeguards/Advisory Committee on Nuclear Waste
G. Paul Bollwerk, III, Chief Administrative Judge, Atomic Safety and
 Licensing Board Panel
Karen D. Cyr, General Counsel
John F. Cordes, Jr., Director, Office of Commission Appellate Adjudication
Janice Dunn Lee, Director, Office of International Programs
William N. Outlaw, Director of Communications
Dennis K. Rathbun, Director, Office of Congressional Affairs
Eliot B. Brenner, Director, Office of Public Affairs
Annette Vietti-Cook, Secretary of the Commission
William F. Kane, Deputy Executive Director for Homeland Protection
  and Preparedness, OEDO
Martin J. Virgilio, Deputy Executive Director for Materials, Research
  and State Programs, OEDO
Ellis W. Merschoff, Deputy Executive Director for Reactor Programs, OEDO
William M. Dean, Assistant for Operations, OEDO
Jacqueline E. Silber, Chief Information Officer
Timothy F. Hagan, Director, Office of Administration
Frank J. Congel, Director, Office of Enforcement
Guy P. Caputo, Director, Office of Investigations
Paul E. Bird, Director, Office of Human Resources
Corenthis B. Kelley, Director, Office of Small Business and Civil Rights
Jack R. Strosnider, Director, Office of Nuclear Material Safety and Safeguards
James E. Dyer, Director, Office of Nuclear Reactor Regulation
Carl J. Paperiello, Director, Office of Nuclear Regulatory Research
Paul H. Lohaus, Director, Office of State and Tribal Programs
Roy P. Zimmerman, Director, Office of Nuclear Security and Incident Response
Samuel J. Collins, Regional Administrator, Region I
William D. Travers, Regional Administrator, Region II
James L. Caldwell, Regional Administrator, Region III
Bruce S. Mallett, Regional Administrator, Region IV
Office of Public Affairs, Region I
Office of Public Affairs, Region II
Office of Public Affairs, Region IV
                                                Audit of the Budget Formulation Process



EXECUTIVE SUMMARY

   BACKGROUND

         The Office of the Chief Financial Officer (OCFO) manages the
         Nuclear Regulatory Commission’s (NRC) Planning, Budgeting and
         Performance Management Process (PBPM). NRC designed PBPM
         to improve the integration of its strategic planning, budgeting, and
         performance management processes and to enhance cooperation
         and coordination among offices. OCFO is responsible for
         managing both budget formulation and budget execution. Budget
         formulation involves extensive coordination among the Office of the
         Executive Director for Operations (OEDO), OCFO, and program
         and support offices.

         Development of the agency’s budget is a multi-step process that
         includes significant internal coordination and communication.
         Key preliminary steps include development of the Strategic Plan,
         Performance Measures, Key Planning Assumptions, Fiscal
         Guidance, and Key Outputs. Ideally, the steps should occur
         sequentially, though some may occur in parallel. Early Commission
         decision on and approval of the preceding products is critical to
         ensure that offices prepare their budgets with a minimum of rework.
         Other key steps include common prioritization, the budget call, and
         the Program Review Committee (PRC) assessment.

   PURPOSE

         The audit objectives were to determine whether the budget
         formulation portion of the Planning, Budgeting, and Performance
         Management process is:

         (1)   effectively used to develop and collect data to align resources
               with strategic goals, and

         (2)   efficiently and effectively coordinated with program and
               support offices.

   RESULTS IN BRIEF

         The agency effectively develops and collects data to align
         resources with strategic goals. The budget is prepared in
         alignment with the Strategic Plan. Further, the agency successfully
         conducted Program Assessment Rating Tool (PART) evaluations
         during the budget formulation cycles for FYs 2005 and 2006. NRC
         continues to improve the internal coordination of the budget


                                     i
                                            Audit of the Budget Formulation Process



     formulation portion of the PBPM process with program and support
     offices. Also, the major program offices continue to develop and
     refine the common prioritization process. In addition to the
     improvements already made, action is needed to further improve
     internal coordination and communication. Specifically,

     (1)    the roles and responsibilities of the Chief Financial Officer
            (CFO) and the Executive Director for Operations (EDO)
            require clarification (refer to page 7),

     (2)    common prioritization needs definition and methodology
            (refer to page 9),

     (3)    the decision-making process and roles and responsibilities of
            the Program Review Committee need to be documented
            (refer to page 9), and

     (4)    the budget formulation process needs to be further
            documented (refer to page 10).

     Lack of written policies and procedures that clarify the roles and
     responsibilities of key participants in the budget formulation process
     result in inefficiencies, particularly workflow disruption, confusion,
     and rework. Addressing the weaknesses identified in this report will
     improve the overall effectiveness and efficiency of the agency’s
     budget formulation process and provide assurance that related
     aspects of the program are coordinated.

AGENCY COMMENTS

     At a September 28, 2004, exit conference with agency senior
     executives, NRC officials generally agreed with the report’s findings
     and recommendations. On January 7, 2005, the Deputy CFO, with
     concurrence of the OEDO, provided a final response consisting of
     two supplementary comments. (See Appendix B) These
     comments, along with prior comments, have been incorporated, as
     appropriate, in our final report. See Appendix C for the full text of
     the agency’s comments and the Office of the Inspector General’s
     (OIG) analysis and response.




                                 ii
                                         Audit of the Budget Formulation Process



ABBREVIATIONS AND ACRONYMS

       CFO     Chief Financial Officer
       CIO     Chief Information Officer
       CRDS    Controller Resource Database System
       EDO     Executive Director for Operations
       MD      Management Directive
       NRC     Nuclear Regulatory Commission
       OCFO    Office of the Chief Financial Officer
       OEDO    Office of the Executive Director for Operations
       OIG     Office of the Inspector General
       OMB     Office of Management and Budget
       PART    Program Assessment Rating Tool
       PBPM    Planning, Budgeting and Performance Management
               Process
       PRC     Program Review Committee




                            iii
                           Audit of the Budget Formulation Process




[Page intentionally left blank.]




               iv
                                                                   Audit of the Budget Formulation Process



TABLE OF CONTENTS

    EXECUTIVE SUMMARY............................................................................. i
    ABBREVIATIONS AND ACRONYMS ........................................................iii
    I.    BACKGROUND .................................................................................. 1
    II.   PURPOSE........................................................................................... 5
    III. FINDING ............................................................................................. 6
             A. INTERNAL COORDINATION AND COMMUNICATION
                NEED IMPROVEMENT..................................................................... 6

    IV. OTHER MATTERS ............................................................................ 11
    V. AGENCY COMMENTS...................................................................... 13


    APPENDICES

    A. SCOPE AND METHODOLOGY......................................................... 15

    B. FORMAL AGENCY COMMENTS ...................................................... 17

    C. OIG ANALYSIS OF AGENCY COMMENTS ...................................... 19




                                                    v
                           Audit of the Budget Formulation Process




[Page intentionally left blank.]




               vi
                                                                     Audit of the Budget Formulation Process



I. BACKGROUND

                    The OCFO manages the NRC’s PBPM process. NRC designed
                    PBPM to improve the integration of its strategic planning,
                    budgeting, and performance management processes and to
                    enhance cooperation and coordination among offices. OCFO is
                    responsible for managing both budget formulation and budget
                    execution. Budget formulation involves extensive coordination
                    among the OEDO, OCFO, and program and support offices.
                    During FY 2004, OCFO’s resources dedicated to budget
                    formulation totaled approximately $2.3 million which primarily
                    consisted of salaries and benefits for 16 staff members.1 In
                    addition, substantial resources are expended by all other NRC
                    Offices.

                    Steps Leading to NRC’s Budget

                    As illustrated in the following flowchart,2 development of the
                    agency’s budget is a multi-step process that includes significant
                    internal coordination and communication.




1
  These resources include all OCFO/Division of Planning, Budget, and Analysis activities to support,
conduct, and improve the internal and external review of the agency’s budget, including planning, policy and
operations, program analysis, support for the current and development of the new budget formulation
information technology system, and a proportionate share of overhead, travel, training and supplies. OCFO
represents that resources devoted to the internal review of the budget as covered by the audit are $1.2
million, including 10 FTE.
2
    The flowchart was prepared by the Office of Nuclear Material Safety and Safeguards.


                                                      1
                     O V E R V IE W O F S T E P S L E AD IN G T O A B U D G E T




     F Y 2 0 04 -09                                     C O M M IS S IO N
S T R AT E G IC P L AN
                                                                                                     C O M M IS S IO N
                                                                                                       R E V IE W &
                                                                                                      APPROVAL

                             C O M M IS S IO N A L IG N M E N T



                                                                                            F IS C A L D IS C IP L IN E
                                                P L A N N IN G                                   (IT E R AT IO N )
                                             A S S U M P T IO N S




                                                                                                                    F Y 2 0 06 B U D G E T
   F Y 2 0 06
                              P R E L IM IN A R Y M A J O R                                                             REQUEST &
  GO ALS &
                                  PR O G R AM K EY                                                                    F IN A L M A J O R
PER FO R M AN C E
                                 OUTPUTS/ W ORK                                                                          PR O G R AM
 M E AS U R E S
                                                                                                                      K EY O U TPU TS



                                         F IS C A L                          COMM ON
                                       G U ID A N C E                   P R IO R IT IZ A T IO N




                                                                    2
                                                                Audit of the Budget Formulation Process




                 Key preliminary steps include development of the Strategic Plan,
                 Performance Measures, Key Planning Assumptions, Fiscal
                 Guidance, and Key Outputs. The preliminary steps are discussed
                 briefly below. Ideally, the steps should occur sequentially, though
                 some may occur in parallel. Early Commission decision on and
                 approval of the preceding products is important to ensure that
                 offices prepare their budgets with a minimum of rework.

                 o The Strategic Plan sets the strategic direction and long-term
                   goals for the agency.3

                 o Performance Measures are used to define success in achieving
                   the agency’s goals and are established during the yearly
                   planning cycle.

                 o Key Planning Assumptions guide development of office budget
                   requests and include external and internal factors that will
                   significantly influence the agency’s work activities and resource
                   requirements.

                 o Fiscal Guidance, issued by OCFO, provides an overall
                   framework/guideline for reporting and assessing office
                   submissions.

                 o Key Outputs provide early identification of major agency
                   products.

                 Other key steps that are described in more detail below include
                 common prioritization, the budget call, and the PRC assessment.

                         Common Prioritization

                 Common prioritization is a process that brings together the program
                 offices to work towards agreement on the relative priority of all
                 proposed work and to determine how best to distribute resources
                 within their applicable strategic arenas (now major programs). The
                 concept of common prioritization was first introduced during the
                 FY 2004 budget cycle. At the direction of the EDO, offices
                 individually prioritized activities as had been the practice for several
                 years. Additionally, the EDO directed certain major program
                 offices, namely, the Office of Nuclear Material Safety and
                 Safeguards, the Office of Nuclear Reactor Regulation, and the
                 Office of Nuclear Regulatory Research to use one unified

3
 Both the Strategic Plan and the Performance Goals and Measures were undergoing revisions during the
budget formulation cycle.


                                                  3
                                                                  Audit of the Budget Formulation Process



                 prioritization method for work within their applicable major
                 programs. For the FY 2006 budget formulation cycle, the EDO
                 charged the above named major program offices along with the
                 Office of Nuclear Security and Incident Response to continue
                 implementation and refinement of the common prioritization
                 process.4 The support offices are working on a proposal for a
                 common prioritization methodology that will be used by them for the
                 FY 2007 PBPM process.

                          Budget Call

                 Through the annual budget call, OCFO issues instructions to
                 program and support offices for developing their budget requests.
                 The offices, in return, provide their budget assumptions and
                 requests to OCFO for review, analysis, development of program
                 chapters and appendices, and preparation of the budget for review
                 by the PRC. Each office’s budget request includes the resources to
                 accomplish agency goals. OCFO consolidates the budget requests
                 and presents the analyses of program, policy, and resource issues
                 to the PRC.

                          Program Review Committee

                 The PRC consists of the four Deputy Executive Directors, the
                 Deputy CFO, the Chief Information Officer (CIO), and a Regional
                 representative. The PRC reviews office budget submissions and
                 provides budget recommendations to the CFO and the EDO. The
                 CFO and EDO, working together, then submit the proposed budget
                 to the Chairman. The Chairman’s budget is then provided to the
                 Commission for review and approval. In September, the agency’s
                 proposed performance budget (the "blue book") is forwarded to the
                 Office of Management and Budget (OMB) for review. After OMB
                 passback (or revisions), NRC modifies its budget as necessary and
                 it becomes a part of the President’s Budget ("green book”). Finally,
                 the agency sends the green book to Congress. The Congress
                 determines the level of funding to be appropriated to the NRC.




4
 The Offices of Investigation, Enforcement, State and Tribal Programs, General Counsel, and International
Programs also participated in the process.


                                                    4
                                                             Audit of the Budget Formulation Process



         The chart below shows the agency’s budget totals for
         FYs 2002 through 2005.




                                          NRC Budget
                                     (Dollars in Millions)

                          $700
                                                                        $669
                          $650                            $626
               Amount




                          $600     $578       $585
                          $550
                          $500
                                   2002       2003        2004          2005
                                                  Fiscal Year




         Based on analysis of NRC’s “green books,” increases in agency
         salaries and benefits and additional activities related to Homeland
         Security, the High-Level Waste program, reactor license renewals,
         and new reactor licensing account for the majority of the growth in
         the budget over the last four years.


II. PURPOSE

         The audit objectives were to determine whether the budget
         formulation portion of the Planning, Budgeting, and Performance
         Management process is:

         (1)            effectively used to develop and collect data to align resources
                        with strategic goals, and

         (2)            efficiently and effectively coordinated with program and
                        support offices.




                                              5
                                                                Audit of the Budget Formulation Process



III. FINDING

                 As required by the Government Performance and Results Act of
                 1993, the agency effectively develops and collects data to align
                 resources with strategic goals. The budget is prepared in
                 alignment with the Strategic Plan. The agency’s FY 2006 budget
                 describes programs, including the performance measures and
                 metrics and associated resources required to achieve the goals
                 identified in the Strategic Plan. Further, as required by OMB, the
                 agency conducted PART evaluations5 during the budget
                 formulation cycles for FYs 2005 and 2006. All three programs6
                 evaluated received the highest rating given by OMB - “effective.”
                 Two additional programs are scheduled for evaluation during the
                 FY 2007 budget formulation cycle.

                 NRC continues to improve the internal coordination of the budget
                 formulation portion of the PBPM process with program and support
                 offices. For example, OCFO conducted a “lessons learned”
                 exercise following the preparation of the FY 2005 budget. Efforts
                 were made to address the observations and comments from
                 agency offices. OCFO issued the budget call document with fiscal
                 guidance one month earlier than in the prior year and continued to
                 hold weekly discussion sessions to answer questions from program
                 office budget analysts. Additionally, the major program offices
                 continued to develop and refine the common prioritization process.
                 In addition to improvements already made, action is needed to
                 further improve internal coordination and communication.


        A. INTERNAL COORDINATION AND COMMUNICATION NEED
           IMPROVEMENT

                 Additional efforts are needed in the area of internal coordination
                 and communication. Specifically, the roles and responsibilities of
                 the CFO and EDO require clarification; common prioritization needs
                 definition and methodology; the decision-making process and roles
                 and responsibilities of the PRC need to be documented; and the
                 budget formulation process needs to be further documented. Lack
                 of written policies and procedures that clarify the roles and

5
 PART is a tool developed by OMB to assess program performance in four areas: Purpose, Strategic
Planning, Program Management, and Program Results. OMB’s goal is to evaluate all Federal programs on
a five-year cycle.
6
  The Reactor Inspection and Performance Assessment Program and the Fuel Facilities Licensing and
Inspection Program were evaluated during FY 2003 (FY 2005 budget preparation). The Nuclear Materials
Users Licensing and Inspection Program was evaluated during FY 2004 (FY 2006 budget preparation).


                                                  6
                                                                 Audit of the Budget Formulation Process



                 responsibilities of key participants in the budget formulation process
                 result in inefficiencies, particularly workflow disruption and
                 confusion.

                 Officials in program and support offices expressed concerns that
                 numerous meetings and the revisions and rework of budget
                 documents affect the ability of their organizations to operate
                 efficiently.

                 Roles and Responsibilities of the CFO and EDO Require
                 Clarification

                 While the agency continues to improve coordination of the budget
                 formulation process with program and support offices, additional
                 steps are needed to clarify the roles and responsibilities of the CFO
                 and EDO. In January 2001, the Commission abolished the
                 Executive Council7 and gave the CFO and the EDO responsibility
                 for jointly producing and submitting selected work products related
                 to the PBPM process. The respective roles and responsibilities,
                 however, were never defined and clarified at the implementation
                 level. Although Management Directive (MD) 4.7, “NRC Long-
                 Range Planning, Programming, and Budget Formulation,” approved
                 October 1, 1989, and amended as of October 1, 1990, outlines
                 roles and responsibilities in the budget formulation process, it is
                 outdated and requires substantial updating and clarification to
                 match the current process. As a result of the absence of a clear
                 definition of roles and responsibilities, problems continue to affect
                 the budget formulation process. Among these problems are delays
                 in issuing key documents, inadequate time to respond to requests,
                 and inadequate coordination of changes to documents.

                          Delays in Issuing Key Documents

                 Though Commission input plays a major role in the budget process,
                 offices prepared their FY 2006 budget requests without the benefit
                 of Commission decisions on the key planning assumptions and
                 performance measures. The lack of clear delineation of the roles
                 and responsibilities of the CFO and EDO contributed to
                 coordination difficulties, including numerous changes to budget
                 documents. These circumstances resulted in a six-week8 delay in

7
 The Executive Council consisted of three equal members: the EDO, the CFO, and the CIO. The
Executive Council as a unit and the three individual members reported directly to the Chairman.
8
 OIG calculated the six-week period using the scheduled and actual dates of January 30, 2004, and
March 16, 2004, respectively, for submitting the key planning assumptions to the Commission. The source
of the January 30, 2004, date is a CFO memorandum dated December 8, 2003, titled “Development Of Key
Planning Assumptions For The FY 2006 Program And Budget Planning Cycle.”


                                                   7
                                                                   Audit of the Budget Formulation Process



                 the Commission’s receipt of the key planning assumptions and
                 performance measures. It is important to obtain Commission
                 decisions early in the process in order to allow offices to prepare
                 their budgets with a minimum of rework. Preparation of the budget
                 without Commission approval of the key planning assumptions and
                 performance measures leaves offices vulnerable to the possibility
                 that the assumptions and measures will be changed, requiring
                 rework of the budget. For example, during the FY 2006 budget
                 formulation process, the Commission was provided key planning
                 assumptions and performance measures late in the process
                 (March 16, 2004). Therefore, offices were not able to incorporate
                 Commission guidance prior to submitting their budgets on
                 April 2, 2004. This delay did not result in any known significant
                 rework. During the previous year, however, the agency performed
                 extensive rework on the budget request as a result of obtaining
                 direction from the Chairman late in the budget formulation process.9

                          Inadequate Time To Respond To Requests

                 Generally, OCFO provides 15 to 30 working days for formal
                 requests for information by memoranda and 3 working days for
                 email requests. However, staff in several offices commented that,
                 throughout the FY 2006 budget formulation process, they received
                 several requests for information or clarification from OCFO with
                 short turnaround times, some as little as 30 minutes. Such
                 requests affect workload and exacerbate the natural tensions that
                 exist during the budget formulation process. The absence of
                 clearly defined roles and responsibilities of the CFO and EDO in the
                 budget formulation process contributes to the communication and
                 coordination difficulties described previously.

                          Inadequate Coordination of Changes to Documents

                 Several program offices cited instances of changes to their budget
                 narratives that were incorrect and which altered the meaning of the
                 input. Identifying such changes and communicating the impact of
                 them to OCFO staff took about two to three business days. The
                 changes were corrected before the budget documents went
                 forward, but resolving the issues adversely affected workflow and
                 increased tension. In some cases, OCFO made the changes to fit
                 the format prescribed by OMB. Communication of OMB formats to


9
  During the FY 2005 budget formulation process, the agency submitted budget assumptions to the
Commission on March 4, 2003, for informational purposes only; approval was not sought. The budget
submitted to the Chairman on June 9, 2003, contained a limit of 10 reactor license renewal reviews. On
June 20, 2003, the Chairman determined that additional resources should be provided to increase the limit
from 10 to 12 reviews.


                                                     8
                                     Audit of the Budget Formulation Process



the program offices would alleviate this problem. The lack of a
definition of the roles and responsibilities of the CFO and EDO
contributed to this problem.

Common Prioritization Needs Definition and Methodology

Common prioritization is a process that brings together the major
program offices to: (1) work towards agreement on the relative
priority of all proposed work and (2) make informed decisions on
how best to apply resources effectively toward the achievement of
agency goals.

Common prioritization enhances shared accountability and has the
potential to streamline the budget process. It has proven to be both
positive and useful in the budget formulation process and PRC
meetings. The EDO noted, in a memo dated September 12, 2003,
that common prioritization “represents a significant advancement in
planning and budgeting within the PBPM process.” However, a
definition of the process and a methodology are required to avoid
the current difficulty with lengthy meetings and absence of
leadership with authority to resolve disputes. Specifically, absent
such authority by defined leadership during meetings,
disagreements among the offices participating in common
prioritization are difficult to resolve. The definition should also
include the sequential placement of common prioritization in the
budget process. Ideally, common prioritization should be
completed before the development of office budget requests.

Decision-Making Process and Roles and Responsibilities of
the Program Review Committee Need to be Documented

The PRC consists of the four Deputy Executive Directors, the
Deputy CFO, the CIO, and a Regional representative. Although its
composition has been established, the decision-making process
and the roles and responsibilities of the PRC need to be clearly
documented. One of the main functions of the PRC is assessing
office budget requests for consistency with the agency’s strategic
objective and goals. This assessment occurs over a four to five
week period during April and May. Following the review, the PRC
makes recommendations for CFO and EDO consideration. A
management directive that includes a definition of the decision-
making process and the roles and responsibilities of the PRC would
add permanence to this committee and better document this aspect
of the budget formulation process.




                          9
                                       Audit of the Budget Formulation Process



The Budget Formulation Process Needs to be Further
Documented

As a result of the lack of written criteria and procedures, the roles
and responsibilities of all the key participants in the budget process
are unclear. The Standards for Internal Control in the Federal
Government stipulate that internal control is an integral component
of an organization’s management that provides reasonable
assurance that an organization achieves efficiency and
effectiveness in the course of its operations. Creating a good
internal control environment requires the agency’s organizational
structure to “clearly define key areas of authority and responsibility
and establish appropriate lines of reporting.” Such definition would
alleviate many of the current difficulties with the budget formulation
process.

The PBPM process, which includes planning and budget
formulation, would be more effective if the management directives
defined roles and responsibilities, further documented the process,
and institutionalized meetings with and early direction from the
Commission. A number of management directives contain
provisions that address budget formulation.

MD 4.7, “NRC Long-Range Planning, Programming, and Budget
Formulation,” approved October 1, 1989, and amended as of
October 1, 1990, includes the policies and procedures that govern
the agency’s budget formulation process and sets out the roles and
responsibilities of the various parties. It is, however, thoroughly
out-of-date.

MD 4.8, “Performance Measurement,” currently in draft form,
addresses the establishment and maintenance of performance
measures that provide information necessary to determine whether
the agency has achieved its strategic and performance goals.
Issuance of MD 4.8 has been delayed for over two years.
Although the OEDO raised some concerns regarding the draft
management directive with the OCFO, the OEDO has not provided
written comments or suggested changes to OCFO. OCFO issued
interim guidance in July 2001.

MD 9.20, “Organization and Functions, Office of the Chief Financial
Officer,” mentions the shared responsibilities of the CFO and the
EDO for jointly producing and submitting products related to the
PBPM process.




                           10
                                               Audit of the Budget Formulation Process



        These management directives do not adequately define and
        document the complete process. As a result, the management
        directives need to be updated to address all aspects of the process.

        Inefficiency, Disruption and Confusion

        The lack of clarification regarding the roles and responsibilities of
        key participants in the budget formulation process has led to
        confusion for the offices and disrupted their workflow. Without up-
        to-date management directives, employees engaged in budget
        formulation may not efficiently and effectively perform their duties
        and new employees will not have an authoritative source for
        reference. Additionally, the failure to obtain early Commission
        direction led staff in program offices to spend excessive time on
        rework.

        RECOMMENDATIONS

        OIG recommends that the Chief Financial Officer update the
        management directives to:

        1. Clarify, in coordination with the Executive Director for
           Operations, the roles and responsibilities of the Chief Financial
           Officer and Executive Director for Operations in the budget
           formulation process.

        2. Document the decision-making process and roles and
           responsibilities of the Program Review Committee.

        3. Document the budget formulation process to ensure a logical,
           comprehensive sequencing of events that provides for obtaining
           early Commission direction and approval.

        The OIG recommends that the Executive Director for Operations
        update the management directives to:

        4. Document the methodology for the common prioritization
           process for program offices.


IV. OTHER MATTERS

        During the course of the audit, OIG considered other matters
        including replacement of the agency’s computer budget system and
        successful budget formulation practices used by other Federal
        agencies.


                                   11
                                      Audit of the Budget Formulation Process



Replacement of the Controller Resource Database System

At NRC, an integral part of the budget formulation process is the
entry of budget information into an ACCESS Database, referred to
as the Controller Resource Database System or CRDS. The
database, which became operational in July 1995, contains
valuable historical, current, and proposed agency budget request
information. However, CRDS has experienced many problems
including system failures, functional limitations, and excessive time
demands on staff. As a result of known CRDS deficiencies, an
OCFO lessons learned initiative, and an offsite manager’s meeting,
OCFO is conducting an evaluation that will lead to selection of an
information technology application for the replacement of CRDS.

In June 2004, OIG representatives visited the Patent and
Trademark Office and interviewed agency officials. During the
interview, OIG learned that the Patent and Trademark Office had
completed extensive market research into a proposed purchase of
a new computerized budget system. Patent and Trademark Office
officials stated that they had entered the final stages of their
research and were close to purchasing a new system. OIG
representatives realized that this market research information could
prove valuable to NRC’s Budget Project Team, which is in the initial
stages of searching for a new computerized budget system.
Consequently, information was forwarded to the Project Team who
will build on Patent and Trademark Office efforts.

Successful Budget Formulation Practices Used by Other
Federal Agencies

OIG gathered information on successful budget formulation
practices from the following agencies’ budget offices: Patent and
Trademark Office, Federal Energy Regulatory Commission, Federal
Communications Commission, and the Department of
Transportation. Highlights of the information obtained are listed
below.

Successful Budget Office Practices

•   Obtain early Executive Management guidance and start the
    budget cycle early to allow ample time for budget preparation by
    the offices.

•   Issue a monthly budget calendar containing relevant meetings
    and due dates of budget products.




                          12
                                            Audit of the Budget Formulation Process



       •   Take Commission meeting schedules into consideration when
           preparing the budget calendar.

       Successful Program and Support Office Practices

       •   Have the program and support offices, rather than the budget
           office, prepare the budget narrative justifications.


V. AGENCY COMMENTS

       At an exit conference on September 28, 2004, OIG discussed its
       draft report with agency officials. Subsequent to that meeting, OIG
       met with OCFO senior managers on two occasions to address
       specific issues that OCFO and OEDO believed needed further
       clarification or explanation. Additionally, OIG received written
       comments on the discussion draft report as well as requested
       documentation related to the agency’s comments.

       On January 7, 2005, the Deputy Chief Financial Officer, with
       concurrence of the OEDO, provided a final response consisting of
       two supplementary comments. (See Appendix B) The first
       comment related to information that is considered pre-decisional.
       OIG did not include that information in this report. The second
       comment related to the finding concerning delays in issuing key
       documents. The agency asserted that the last sentence of the
       finding and its accompanying footnote may (emphasis added)
       mislead the reader. OIG disagrees with this assertion. See
       Appendix C for the full text of the agency’s comments and OIG’s
       analysis and response.

       These comments, along with prior comments, have been
       incorporated, as appropriate, in our final report.




                                 13
                           Audit of the Budget Formulation Process




[Page intentionally left blank.}




              14
                                              Audit of the Budget Formulation Process


                                                                         Appendix A
SCOPE AND METHODOLOGY

       The audit objectives were to determine whether the budget
       formulation portion of the Planning, Budgeting, and Performance
       Management process is:

       (1)   effectively used to develop and collect data to align resources
             with strategic goals, and

       (2)   efficiently and effectively coordinated with program and
             support offices.

       To accomplish the audit objectives, OIG reviewed and analyzed
       pertinent laws, regulations, authoritative guidance and prior
       relevant NRC/OIG and General Accounting Office reports. This
       review focused on the FY 2006 budget formulation process. OIG
       reviewed applicable documentation to gain an understanding of
       how the agency (1) develops and collects data to align resources
       with strategic goals and (2) coordinates the budget portion of the
       PBPM process. OIG interviewed personnel from most
       Headquarters’ offices to determine current issues, problems, and
       known deficiencies and to assess management controls.
       Additionally, OIG contacted other Federal Agencies and obtained
       information about successful budget formulation practices and
       lessons learned data.

       OIG reviewed and analyzed management controls related to the
       audit objectives, and conducted this audit from February through
       July 2004 in accordance with Generally Accepted Government
       Auditing Standards. The major contributors to this report were
       Steven Zane, Team Leader; Kathleen Stetson, Audit Manager;
       Michael Steinberg, Senior Auditor; and Amanda Hollander, Intern.




                                  15
                           Audit of the Budget Formulation Process




[Page intentionally left blank.]




              16
                              Audit of the Budget Formulation Process


                                                        Appendix B


FORMAL AGENCY COMMENTS




                         17
     Audit of the Budget Formulation Process




18
                                                         Audit of the Budget Formulation Process


                                                                                   Appendix C
DETAILED OIG ANALYSIS OF AGENCY COMMENTS

Finding: Internal Coordination and Communication Need Improvement –
Delays in Issuing Key Documents

       Agency Comments:

               Page 5 of the draft report contains FY 2006 resource estimates
               based on the NRC’s budget request that was submitted to OMB in
               September 2004. The OMB Circular A-11 (Preparation,
               Submission, and Execution of the Budget) Section 22-1 states that,
               “The nature and amounts of the President’s decisions and the
               underlying materials are confidential. Do not release the
               President’s decisions outside of your agency until the budget is
               transmitted to the Congress. In addition, materials underlying those
               decisions should not be released at any time, except in accordance
               with this section.” We recommend that the references to the FY
               2006 budget contained in the report be removed or the report not
               be released until after the President’s budget has been submitted to
               Congress in February 2005.1

       OIG Response:

               OIG removed the references to the FY 2006 budget in this report.

       Agency Comments:

               Page 9 of the draft report states, “Preparation of the budget without
               Commission approval of the key planning assumptions and
               performance measures leaves offices vulnerable to the possibility
               that the assumptions and measures will be changed, requiring a
               rework of the budget. For example, during the FY 2006, budget
               formulation process, the Commission was provided key planning
               assumptions and performance measures late in the process
               (March 16, 2004). Therefore, Offices were not able to incorporate
               Commission guidance prior to submitting their budgets on April 2,
               2004. This delay did not result in any known significant rework.
               During the previous year, however, the agency performed an
               extensive rework on the budget request as a result of obtaining
               direction from the Chairman late in the budget formulation
               precesses [sic] [emphasis added].10” This last sentence and its
       1
          If the references to FY 2006 are retained, the estimates should be revised to
reflect the OMB’s final passback.




                                            19
                                            Audit of the Budget Formulation Process



     accompanying footnote may mislead the reader. The rework
     referred to in the statement was necessary because the staff
     decided to abandon the original March 4, 2003, planning
     assumptions and to introduce a new concept of limiting or “capping”
     the number of license renewal applications to be reviewed. The
     FY 2005 budget, submitted to the Chairman on June 9, 2003,
     included this first time proposal to limit the number of license
     renewal applications to be reviewed. As part of his review, the
     Chairman determined that resources should be adjusted to
     increase the number of license renewal applications to be reviewed
     from 10 to 12. Because of its misleading nature, we recommend
     that the statement be removed. A similar statement on page 13
     should also be removed.

OIG Response:

     The agency asserted that the last sentence of the finding and its
     accompanying footnote may (emphasis added) mislead the reader.
     OIG disagrees with this assertion. Based on earlier comments and
     additional information provided by the agency, OIG added footnote
     10, on page 8 of this report, for clarification. The discussion in this
     report accurately reflects the facts. Therefore, OIG did not make
     further changes to the report.




                                20
